                                    Office of the Inspector General
                    United States Government Accountability Office


GAO/OIG

December 2010
                SEMIANNUAL
                REPORT

                April 1, 2010—
                September 30, 2010




GAO/OIG-11-2
                                                                    Office of the Inspector General
                                                    United States Government Accountability Office




Memorandum
Date:          December 7, 2010

To:            Acting Comptroller General Gene L. Dodaro

From:          Inspector General Frances Garcia

Subject:       Semiannual Report—April 1, 2010, through September 30, 2010

In accordance with Section 5 of the Government Accountability Office Act of 2008
(GAO Act), 1 I am pleased to present my semiannual report for the 6-month period
ending September 30, 2010, for your comments and its transmission to the Congress.

During the reporting period, the Office of the Inspector General (OIG) sustained its
efforts to finalize and implement the revised OIG order to reflect our statutory role
and responsibilities while continuing to conduct audits and investigations. We posted
the revised draft OIG order for notice and comment and are in the process of
considering and responding to comments we received and to make further changes in
the order, as appropriate. In addition, we conducted an internal review of our quality
assurance framework and are in the process of taking steps to further strengthen our
processes and controls in response to this review. We recognize that other changes
may be needed as we finalize our OIG order and complete our transition to the role of
a statutory OIG. As a result, we do not anticipate participating in a peer review until
we have completed this transition and have conducted and fully addressed any
recommendations resulting from at least two additional internal inspections.

In support of our transition to a statutory OIG, we updated our annual work plan based
on an audit risk assessment of GAO operations that we prepared, and initiated a survey
to further identify key trends and potential risks in GAO’s procurement activities and
control environment that may warrant an in-depth evaluation. While our engagements
are generally focused on areas identified in our work plan, adjustments to our work
plan are made, as needed, in an effort to ensure that we are in tune with changing
conditions or emerging issues and are able to respond appropriately.

In addition, we continued to participate in the activities of the broader inspector
general community, including the Council of the Inspectors General on Integrity and
Efficiency and the Legislative Branch Inspectors General quarterly meetings.


1
 Pub. L. No. 110-323, 122 Stat. 3539 (Sept. 22, 2008).


Page 1                                                              GAO/OIG-11-2 Semiannual Report
Audits and Inspections
During the reporting period, we issued one audit report that evaluated GAO’s
performance measure for reporting financial benefits for fiscal year 2009, focusing on
the reasonableness of the amounts claimed. 2 A summary of this report and GAO
actions to address our recommendation are presented in attachment I.

In addition, we supported GAO’s annual internal inspection program’s review of the
agency’s financial disclosure and independence functions, and initiated or continued
work related to two other engagements, which included a review of the adequacy of
GAO’s controls to prevent and detect employee misuse of government travel cards
and an assessment of the effectiveness of GAO’s information security controls,
including GAO’s voluntary compliance with the Federal Information Security
Management Act and other federal information security requirements, as appropriate.

We also responded to congressional inquiries regarding Freedom of Information Act
requests, the status of OIG recommendations, and impediments, if any, to OIG’s
independence in carrying out its oversight activities within GAO. We provided these
responses only to the requesters and do not anticipate their public release unless
made public by a requester.

Investigations and Hotline Activities
Regarding our efforts to identify potential fraud, waste, and abuse, the OIG’s hotline
is our primary source of complaints. 3 The OIG receives hotline complaints through a
variety of sources, such as through its toll-free hotline number and e-mail. As shown
in table 1, we had a total of 120 complaints, 13 of which were open at the start of this
6-month reporting period.

Table 1: Summary of OIG Activity, April 1, 2010, through September 30, 2010

                                              Complaints
                                                 Closed,
    Open at                                  insufficient Referred to
    start of                    Referred to information/  other GAO                       Open at end
    period        Received       FraudNet       no basis        units         Completed     of period
    13                 107              55             40           9                 9             7
Source: GAO OIG.
Note: “Complaints” include inquires and allegations received by OIG.

Of the 13 open cases from the prior semiannual report period, we closed 7 after
conducting investigations, referred 2 to other GAO units, and 4 remained open at the
end of the period. These investigations covered a wide range of matters such as
issues related to travel cards, travel voucher claims, time and attendance charges,
and documentation supporting a contract proposal. Our investigations into these
matters resulted in an employee suspension, recovery of funds, and

2
  GAO, Office of the Inspector General, Performance Measure: GAO Had a Reasonable Basis for
Reporting Its Largest Financial Benefits for Fiscal Year 2009, GAO/OIG-10-4 (Washington, D.C.:
May 21, 2010).
3
  Complaints include inquires and allegations received by OIG.


Page 2                                                                 GAO/OIG-11-2 Semiannual Report
recommendations to strengthen internal controls in the area of contractor parking
and to consider the adoption of suspension and debarment procedures analogous to
executive branch agencies.

During the reporting period, we received 107 new complaints through our hotline and
other sources. Fifty-five of the 107 complaints concerned matters related to other
federal agencies and were referred to GAO’s FraudNet—a governmentwide hotline
operated by GAO staff that receives complaints of fraud, waste, and abuse of federal
funds. Of the remaining 52 complaints received during the reporting period, we

    •    closed 2 complaints after we completed our investigation related to one
         complaint and provided assistance to the U.S. Postal Inspection Service on
         another;
    •    closed an additional 40 complaints due to insufficient information in the
         complaint upon which to base an investigation or after the initial evaluation of
         a complaint determined that there was no basis for action;
    •    referred 7 complaints that involved a variety of issues, including e-mail scams,
         employee conduct, and technical issues, to other GAO units for action; and
    •    continued efforts on the remaining 3 complaints.

Agency Actions on Recommendations Made in Prior OIG Reports
During this reporting period, GAO continued actions to respond to recommendations
intended to strengthen the agency’s information security program. 4 Specifically, GAO
has internally reported that it has completed its testing of required information
security processes and procedures for all agency information systems except for a
recently implemented e-mail system; began finalizing a comprehensive security
incident response directive; and continued efforts to finalize its privacy rule and
order and to implement privacy awareness training for all GAO staff.

Finally, I want to thank GAO’s Executive Committee, managers, and staff for their
cooperation during our reviews.


Attachment

cc: Cheryl Whitaker, Acting Chief Administrative Officer/Chief Financial Officer, GAO
    Lynn Gibson, Acting General Counsel, GAO
    GAO’s Audit Advisory Committee




4
GAO, Office of the Inspector General, Information Security: Evaluation of GAO’s Information
Security Program and Practices for Fiscal Year 2009, GAO/OIG-10-3 (Washington, D.C.: Jan. 4, 2010).


Page 3                                                           GAO/OIG-11-2 Semiannual Report
Attachment I

                   Summary of GAO/OIG Reports and GAO Actions

Reports Issued April 1, 2010, through September 30, 2010 5

Performance Measure: GAO Had a Reasonable Basis for Reporting Its Largest
Financial Benefits for Fiscal Year 2009 (GAO/OIG-10-4, May 21, 2010)

Findings: Overall, the Office of the Inspector General’s (OIG) evaluation of 10 GAO
accomplishment reports 6 that claimed financial benefits valued at $1 billion or more
found that GAO had a reasonable basis to claim financial benefits of $24.95 billion as
cited in its fiscal year 2009 Performance and Accountability Report. 7 These large
dollar value accomplishment reports accounted for 58 percent of GAO’s $43 billion in
total financial benefits claimed for fiscal year 2009. Based on our work, GAO decided
to delay claiming financial benefits for the 10th accomplishment report until fiscal
year 2010 and mission teams made adjustments to 6 of the remaining 9
accomplishment reports reviewed; these actions resulted in GAO decreasing the total
financial benefits claimed for these reports from a total of $26.21 billion to $24.95
billion. Our audit also identified an opportunity to strengthen GAO’s process for
reporting financial benefits by incorporating more technical expertise in calculating
benefit amounts. In response to our work, in January 2010, GAO announced new
procedures for expanding the role of GAO’s Center for Economics to assist the
mission teams in calculating financial benefits for accomplishment reports if they are
reported to be $500 million or more.

Recommendation and GAO Actions: To provide added assurance that GAO’s
financial benefits performance measure reflects a reasonable estimate of benefits and
to provide a more efficient and effective system of internal controls over large dollar
value accomplishment reports, we recommended that GAO management further
analyze the issues we identified and take appropriate steps to assist mission teams in
complying with agency policies to achieve greater reliability in the amount of
financial benefits GAO reports. GAO concurred and addressed our recommendation
by implementing new procedures to incorporate independent reviews for fiscal year
2010 financial accomplishments of $100 million or more, and require mission teams to
consult with the Center for Economics on the calculation for financial benefits of
$500 million or more.




(998291)


5
  In addition to the report cited, we issued our semiannual report for the 6-month period ending March
2010: GAO, Office of the Inspector General, Semiannual Report: October 1, 2010 through March 31,
2010, GAO/OIG-10-5 (Washington, D.C.: June. 15, 2010).
6
  Accomplishment reports are used to document the amounts claimed as financial benefits and are
linked to specific recommendations or actions taken in response to GAO’s work.
7
  GAO-10-234SP.


Page 4                                                              GAO/OIG-11-2 Semiannual Report
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
